October 6, 2020
Writer’s Direct Contact
(213) 683-9575
(213) 683-5175 FAX
erin.cox@mto.com

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

The Moodsters Company v. The Walt Disney Company, et al., No. 20-132
Motion to Extend Time to Respond to Petition for Writ of Certiorari by 28 Days

Dear Mr. Harris:
I am writing on behalf of Respondents in the above-captioned case to request an
extension of time of 28 days for the filing of a brief in opposition to the petition for a writ of
certiorari. This case was placed on the Court’s docket on August 7, 2020, and on August 13
Respondents submitted a letter waiving the right to file a brief in opposition to the petition for
writ of certiorari. On September 16, 2020, you issued a letter requesting that Respondents
nonetheless proceed to file a response on or before October 16, 2020. Pursuant to Rule 30.4 of
the United States Supreme Court, and given the press of business, Respondents respectfully
request a 28-day extension of time—up to and including Friday, November 13—to file their brief
in opposition to the petition for writ of certiorari. This is the first extension Respondents have
sought.
Respectfully submitted,
Erin J. Cox
cc:

Patrick M. Arenz (Counsel for Petitioner)

